No. 20-679
IN THE

Supreme Court of the United States
___________________________________

MICRON TECHNOLOGY, INC.,
v.

Petitioner,

NORTH STAR INNOVATIONS, INC.,
Respondent.
___________________________________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
___________________________________

REPLY BRIEF FOR PETITIONER
___________________________________

Jared Bobrow
Jeremy Jason Lang
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1000 Marsh Road
Menlo Park, CA 94025
(650) 614-7400

Melanie L. Bostwick
Counsel of Record
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street NW
Washington, DC 20005
(202) 339-8400
mbostwick@orrick.com

Counsel for Petitioner

1
REPLY
This petition involves three cases that were remanded to the Patent Trial and Appeal Board for rehearing after the Federal Circuit held the Board’s
judges unconstitutionally appointed. This Court is reviewing that constitutional holding in United States
v. Arthrex, Inc., No. 19-1434. Therefore, Micron asked
this Court to hold this petition and resolve it based on
the outcome of Arthrex. Despite asking for the petition
to be denied, Respondent North Star acknowledges
that these cases will be governed by Arthrex and provides no basis for the Federal Circuit’s underlying
holdings to stand if the constitutional ruling is reversed. For that reason alone, the Court should hold
the petition. Furthermore, this petition presents an
important forfeiture question that the Court should
address even if it upholds the constitutional ruling in
Arthrex, and North Star fails to justify its forfeiture.
1. North Star effectively concedes that this petition should be held pending the Court’s resolution of
Arthrex, No. 19-1434. As Micron explained, the court
of appeals remanded these cases to the Patent Trial
and Appeal Board based solely on its ruling in the Arthrex case. Pet. 9-10. If this Court overturns the Federal Circuit’s ruling regarding the constitutionality of
the Board’s judges, then these rulings should be vacated and remanded so that North Star’s appeals may
proceed on the merits. Pet. 10. North Star does not
disagree. On the contrary, North Star confirms that
the primary question presented by this petition “is already under review by this Court” in the Arthrex case.
BIO 7. North Star offers no basis to uphold the Federal Circuit’s rulings in these cases if the

2
constitutional holding of Arthrex is reversed. And it
certainly offers no reason why this Court should refuse Micron’s requested relief—to hold the present petition and dispose of it as appropriate based on the
outcome of Arthrex. The Court should do just that.
2. North Star’s brief in opposition is directed entirely to Micron’s alternative request that, if the Court
affirms the Federal Circuit’s constitutional holding in
Arthrex, it should grant certiorari in these cases to address whether a party may pursue an Appointments
Clause challenge on appeal when it has forfeited that
challenge before the agency. Pet. 10-13. North Star
fails to show why this Court should excuse the type of
forfeiture at issue here.
North Star principally relies on the fact that this
Court denied certiorari on the forfeiture question presented in Arthrex. BIO 7-9. But the critical difference
between this case and Arthrex is that these proceedings were still pending before the Board when the
Federal Circuit issued its constitutional ruling and its
statutory remedy. Pet. 11-12. North Star could have
asked the Board for rehearing before a new, now-constitutional panel of judges. It chose not to do so.
In an attempt to excuse that forfeiture, North
Star suggests that the Board (or the Director) would
have had discretion to deny such a request, such that
North Star would not have been assured a remedy.
BIO 8-9. North Star neglects to address the Director’s
statement in this very case that rehearing was an
available remedy. C.A. PTO Opp’n at 5. But even if
North Star had no guarantee of a remedy, it was still
incumbent upon North Star to ask. See In re DBC, 545

3
F.3d 1373, 1379 (Fed. Cir. 2008) (“Of course, the
Board may not have corrected the problem, or even
acknowledged that the problem existed. But in that
case, DBC would have preserved its right to appeal
the issue.”).
North Star similarly fails to justify its selective
assertion of the Constitution, challenging the appointment of the judges in the proceedings it lost but
not the appointment of the v ery same judges in the
proceeding it partially won. Pet. 12. North Star notes
only that it was not the party that initiated these inter partes review proceedings before the Board. BIO
10-11. That is no answer. North Star’s acquiescence
in the constitutionality of the tribunal is an independent basis for forfeiture or, at the very least, a reason
not to excuse its failure to raise a constitutional objection before the agency.
*

*

*

For the foregoing reasons and those stated in the
petition for a writ of certiorari, the Court should hold
the petition and dispose of it as appropriate in light of
any decision in Arthrex, No. 19-1434.

4
Respectfully submitted,
Jared Bobrow
Jeremy Jason Lang
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1000 Marsh Road
Menlo Park, CA 94025
(650) 614-7400

January 5, 2021

Melanie L. Bostwick
Counsel of Record
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street NW
Washington, DC 20005
(202) 339-8400
mbostwick@orrick.com

